bvli \>&
FILED: November 18, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1373
(1:19-cv-01542-LO-MSN)

UNDER SEAL
Plaintiff - Appellant
v.
VIRGINIA BOARD OF MEDICINE, Agency of Virginia Department of Health
Professions
Defendant - Appellee

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

r :
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1373

UNDER SEAL,
Plaintiff - Appellant,
v.
VIRGINIA BOARD OF MEDICINE, Agency of Virginia Department of Health
Professions,
Defendant - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Liam O’Grady, Senior District Judge. (l:19-cv-01542-LO-MSN)

Submitted: November 10, 2020

Decided: November 18, 2020

Before GREGORY, Chief Judge, and FLOYD and THACKER, Circuit Judges.

Affirmed by unpublished per curiam opinion. •

Under Seal, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

r
PER CURIAM:
Appellant Under Seal appeals the district court’s order abstaining from and
dismissing Appellant’s civil action seeking equitable relief in an ongoing state proceeding
pursuant to Younger v. Harris, 401 U.S. 37 (1971); Huffman v. Pursue, Ltd., 420 U.S. 592
(1975). We have reviewed the record and find no reversible error. Accordingly, we affirm
the district court’s order. See Ohio Civil Rights Comm ’n v. Dayton Cristian Sch., Inc., All
U.S. 619, 625-29 (1986); Middlesex Cnty. Ethics Comm. v. Garden State Bar Ass’n, 457
U.S. 423, 431-37 (1982); Robinson v. Thomas, 855 F.3d 278, 285-86 (4th Cir. 2017);
Nivens v. Gilchrist, 444 F.3d 237,246-48 (4th Cir. 2006). We dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
AFFIRMED

2

FILED: December 15, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1373
(1:19-cv-01542-LO-MSN)
UNDER SEAL
Plaintiff - Appellant
v.
VIRGINIA BOARD OF MEDICINE, Agency of Virginia Department of Health
Professions
Defendant - Appellee

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

Additional material
from this filing is
available in the
Clerk's Office.

